Nos. 20-543 & 20-544

 

IN THE

Supreme Court of the United States

JANET L. YELLEN,
SECRETARY OF THE TREASURY,
Petitioner,
Vv.
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.,
Respondents.

ALASKA NATIVE VILLAGE CORPORATION
ASSOCIATION, INC., ET AL.,
Petitioner,
Vv.
CONFEDERATED TRIBES OF THE
CHEHALIS RESERVATION, ET AL.,
Respondents.

On Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

BRIEF OF AMICI CURIAE NATIONAL CONGRESS
OF AMERICAN INDIANS, ET AL. INSUPPORT OF
RESPONDENTS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
7,550 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on March 31, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
